HHS/OIG, Audit -"Review of Medicaid Transportation Claims Made by the New York City Department
of Education,"(A-02-03-01023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of
Medicaid Transportation Claims Made by the New York City Department of Education," (A-02-03-01023)
September 15, 2005
Complete
Text of Report is available in PDF format (3.6 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Federal Medicaid payments for transportation services claimed
by the New York City Department of Education (NYCDE) were in compliance with Federal and State requirements.  None
of the120 transportation claims in our statistically valid sample complied with all Federal and State
requirements.  Specifically:  (1) for 119 claims, we were unable to verify that the transportation
services billed were rendered; (2) for 97 claims, a Medicaid-covered school health service other than
transportation was not rendered on days when transportation was billed; (3) Eight claims lacked any
documentation at all; (4) for 33 claims, no childs plan/family plan was provided or the plan was untimely;
and, (5) thirty-six claims did not include a recommendation for transportation services in the childs
plan/family plan.  Based on our sample, we estimate that $96,110,877 in Federal Medicaid funding
was unallowable.  We set aside other claims totaling an estimated $12,130,322 in Federal Medicaid
funding for consideration by CMS and the State because Federal Medicaid law and regulations require
that services be documented but do not specify how transportation services should be documented.
We recommended that the State:  (1) refund $96,110,877 to the Federal Government; (2) work with
CMS to resolve $12,130,322 in set-aside claims; (3) instruct NYCDE to bill transportation based on
the actual number of transportation services rendered, not based on averages; (4) provide proper guidance
on Federal and State Medicaid criteria to NYCDE; (5) reinforce the need for NYCDE to comply with Federal
and State requirements; (6) improve its monitoring of NYCDEs transportation claims to ensure compliance
with Federal and State requirements; and (7) instruct NYCDE to maintain appropriate documentation to
support its Medicaid transportation claims.  In February 14, 2005, comments on our draft report,
State officials disagreed with most aspects of the report, including the audit period, approach, criteria,
and conclusions, and stated that the draft report should be withdrawn.  We disagree with most
of the States comments and continue to believe that Medicaid school health providers need to follow
the documentation standards required of all Medicaid providers.